Federal Communications Commission

    Office of Inspector General




 Semiannual Report to the Congress

    October 1, 2000 - March 31, 2001



                           H. Walker Feaster III
                              Inspector General
TABLE OF CONTENTS


INTRODUCTION                             3
INVESTIGATIONS                           4
LEGISLATION                              8
AUDITS                                   9
SURVEYS                                  15
ONGOING ACTIVITY                         17
TECHNICAL ADVICE AND ASSISTANCE          18
SPECIFIC REPORTING REQUIREMENTS OF       21
SECTION 5 (a) OF THE INSPECTOR GENERAL


ATTACHMENTS

A. TABLE I: OIG AUDIT REPORTS WITH       23


B. TABLE II: OIG AUDIT REPORTS WITH      24
RECOMMENDATIONS THAT FUNDS BE PUT TO
BETTER USE




Semiannual Report to the Congress             2
 INTRODUCTION

 T    he Federal Communications
 Commission (FCC) is an
                                         Michael Powell was designated as
                                         Chairman on January 22, 2001.
                                         Harold W. Furchtgott-Roth, Gloria
 independent regulatory agency           Tristani and Susan P. Ness serve
 exercising authority delegated to it    as Commissioners. One seat is
 by Congress under the                   vacant. The majority of FCC
 Communications Act of 1934 as           employees are located in
 a m e n d e d           b y     t h e   Washington, D.C.       FCC field
 Telecommunications Act of 1996.         offices and resident agents are
 The FCC is charged with                 located throughout the United
 regulating interstate and               States. FCC headquarters staff
 international communications by         are now housed in entirety in the
 radio, television, wire, satellite      Portals II building located at 445
 and cable. The FCC’s jurisdiction       12th Street, S.W., Washington,
 covers the fifty states, the District   D.C. 20554.
 of Columbia, and U.S. possessions.
 The mandate of the FCC under the        The OIG has dedicated itself to
 Communications Act is to make           assisting the Commission as it
 available to all people of the          continues to improve its efficiency
 United States a rapid, efficient,       and effectiveness. The Inspector
 nationwide, and worldwide wire          General (IG) H. Walker Feaster
 and radio communication service.        III, reports directly to the
 The FCC performs four major             Chairman. The OIG staff consists
 functions to fulfill this charge:       of      eight professionals with
                                         Assistant IG’s serving in the areas
 •    Spectrum allocation;               of Audits, Thomas D. Bennett;
 •    Creating rules to promote fair     Investigations,Charles J.
      competition and protect            Willoughby; and Policy &
      consumers where required by        Planning, Thomas M. Holleran.
      market conditions;                 Mr.Willoughby also serves as
 •    Authorization of service; and      counsel.
 •    Enforcement.
                                         This semiannual report includes
 The Chairman and four                   the major accomplishments and
 Commissioners are appointed by          general activities of the OIG
 the President and confirmed by          during the period October 1, 2000
 the Senate.                             through March 31, 2001.




Semiannual Report to the Congress                                         3
                                            is usually referred to the
 INVESTIGATIONS                             appropriate FCC bureau or office
                                            for response directly to the
 I   nvestigative matters pursued by
 this office are generally initiated as a
                                            complainant.     A copy of the
                                            response is also provided to the
                                            OIG. Finally, matters may be
 result of allegations received through     referred to this office for
 the OIG Hot Line or from FCC               investigative action from other
 managers and employees who contact         governmental entities, such as the
 the OIG directly. Investigations may       General Accounting Office, the
 also be predicated upon audit or           Office of Special Counsel or
 inspection findings of fraud, waste,       congressional offices.
 abuse, corruption, or mismanagement
 by FCC employees, contractors, and/
 or subcontractors. Upon receipt of
 an allegation of an administrative or
 criminal violation the OIG usually         ACTIVITY
 conducts a preliminary inquiry to
 determine if an investigation is           Nine cases were pending from the
 warranted.       Investigations may        prior period. An additional eight
 involve possible violations of             complaints were received during
 regulations regarding employee             the reporting period. Over the last
 responsibilities and conduct, federal      six months twelve cases have been
 criminal law, and other regulations        closed.
 and statutes pertaining to the
 activities of the Commission.
 Investigative findings may lead to
 criminal or civil prosecution, or
 administrative action.
                                                  Cases Pending,
                                                  September 30,
 The OIG also receives complaints                 2000             9
 from the general public, both private
 citizens and commercial enterprises,
 about the manner in which the FCC                New Cases        8
 executes its programs and oversight
 responsibilities. All complaints are
                                                  Cases Closed
 examined to determine whether there                               12
 is any basis for OIG audit or
 investigative action.                            Cases Pending,   5
                                                  March 31,
                                                  2001
 If nothing within the jurisdiction of
 the OIG is alleged, the complaint




Semiannual Report to the Congress                                                 4
 Of those cases closed, one resulted         OIG did discover an instance
 in disciplinary action being taken          where nonpublic information
 against an employee and one was             was improperly shared with
 referred to management for action.          someone outside the
                                             Commission. The OIG found
                                             no evidence that this
                                             information was shared with
 SIGNIFICANT                                 memb ers of the media.
 CASES                                       Disciplinary action was taken
                                             against the employee who
                                             shared the information and the
 •    The OIG initiated four                 matter has been closed.
      investigations into the release
      of nonpublic documents or          •   The OIG initiated an
      information to members of the          investigation into allegations of
      media with respect to matters          employees conspiring to falsify
      p e n d i n g b ef o r e t h e         official records in the
      Commission. The matters in             performance of official duties.
      question pertained to the              While the office determined
      Commission’s consideration of          that there was a lack of
      the AT&T/Time Warner                   uniformity with respect to
      merger, the GTE/Bell Atlantic          record keeping and the use of
      merger, the open access issue          time during slow periods, the
      and the AOL/Time Warner                office found no evidence of
      merger. Although one member            employee misconduct.
      of the press who wrote articles        Management was notified of
      on the matters in question,            the OIG’s finding and the
      indicated that he had                  matter has been closed.
      possession of at least two
      documents which contained          •   The OIG conducted an inquiry
      nonpublic information, the OIG         into allegations that Commission
      was unable to conclusively             employees improperly refused to
      determine who within the               furnish a prospective licensee with
      Commission released the                public information. The office
      information in question either         determined that the information in
      verbally or in document form.          question was available on the
      Also, the OIG was unable to            Commission’s web site, which was
      determine if the reporter, who         accessible to the public, and found
      claimed to have the actual             no evidence of employee
      documents, did in fact have the        misconduct. Accordingly, the
      documents. However, in the             OIG concluded that the matter did
      course of the investigation, the       not merit further action and was




Semiannual Report to the Congress                                                5
      closed.                                   decisions.    Accordingly, no
                                                evidence of employee misconduct
 •    The OIG initiated an inquiry into         was found and the matters were
      allegations that a member of the          closed.
      public’s Freedom of Information
      (FOIA) request had been               •   The OIG continues to investigate
      improperly denied. The OIG                allegations of possible fraud by
      determined that while there may           contractors within the Universal
      have been personality differences         Services program of the
      with the requestor, no evidence of        Commission in Georgia.
       employee misconduct was found.
      The matter has been closed.           •   During the reporting period, the
                                                OIG initiated two additional
 •    Pursuant to a referral from the           investigations with regard to the
      General Accounting Office                 Universal Services program. The
      (GAO), the OIG initiated an               investigations pertain to
      inquiry into alleged fraud in the         allegations of improprieties in the
      Universal Services program of the         Alabama and California
      Commission in California. It was          programs. The investigations are
      alleged that several parties had          currently pending.
      conspired to defraud funds of the
      program. Through investigation,
      it was determined that the parties’
      application was denied on
      grounds unrelated to the fraud
      allegations. The application was
      denied due to the parties’ failure
      to meet the funding requirements
      under the program.
      Consequently, the OIG found
      insufficient evidence of fraud and
      the matter has been closed.

 •    During the reporting period, the
      OIG initiated two inquiries into
      allegations of employee
      misconduct in the rendering of
      administrative decisions by the
      Commission.          The OIG
      determined that the allegations
      related to policy and more
      particularly to the merits of the




Semiannual Report to the Congress                                                6
                                    HOTLINE CALLS

                                    During the reporting period, the
                                    OIG Hotline Technician received
                                    104 hotline calls to the published
                                    hotline numbers of (202)418-0473
                                    and toll free (888)863-2244. The
                                    OIG Hotline continues to be a
                                    vehicle by which Commission
                                    employees and parties external to
                                    the FCC can contact the OIG.

                                    Callers who have general questions
                                    or concerns not specifically related
                                    to the missions or functions of the
                                    OIG office are referred to the FCC
                                    Consumer Center (NCC) at (888)
                                    225-5322.       Examples of calls
                                    referred to the NCC include
                                    complaints pertaining to customers’
                                    phone service and local cable
                                    providers, long-distance carrier
                                    slamming, interference, or similar
                                    matters within the program
                                    responsibility of other FCC bureaus
                                    and offices.




Semiannual Report to the Congress                                     7
 LEGISLATION
 Overview

 Pursuant to section 4(a)(2) of the
 Inspector General Act of 1978 (IG
 Act), as amended, our office monitors
 and reviews existing and proposed
 legislative and regulatory items for
 their impact on the Office of the
 Inspector General and the Federal
 Communications Commission
 programs and operations.
 Specifically, we perform this activity
 to evaluate their potent ial for
 encouraging economy and efficiency
 and preventing fraud, waste, and
 mismanagement.


 Activity During This Period

 The Counsel to the IG continued to
 monitor legislative action affecting
 the activities of the OIG and the FCC.

 During this period, this office
 continued to monitor those legislative
 proposals which directly or indirectly
 impact on the ability of Designated
 Federal Entity IG’s to function
 independently and objectively. Those
 specific proposals concerned
 proposals to consolidate OIG’s and to
 directly or indirectly draw
 distinctions between presidentially-
 appointed IG’s and Designated
 Federal Entity IG’s, which may have
 the effect of undermining the role of
 the latter.




Semiannual Report to the Congress         8
                                        System (Sept 25, 1998, Report No.
 AUDITS                                 97-21); evaluate the level of
                                        expenditure required to maintain
                                        the existing Collection System; and
 T    he office has responsibility
 for reviewing FCC programs and
                                        evaluate the FCC’s selection of the
                                        product RAMIS and the detailed
                                        implementation plan.
 making recommendations to
 enhance their effectiveness and
                                        Based on our review, it was
 improve their efficiency.     This
                                        determined that:
 activity includes such diverse
                                        • Several findings from the
 areas as financial statements
                                            previous review had not been
 audits required by the Chief
                                            resolved to completion or the
 Financial Officers Act of 1990
                                            supporting documentation
 (CFO Act); audits of agency
                                            provided was not sufficient to
 compliance with laws and
                                            allow the team to agree with
 regulations; contract audits; and
                                            closure of the finding. Only
 performance audits of FCC
                                            (15) of the (47) high and
 programs.
                                            medium risks originally cited
                                            have been adequately resolved.
 In this reporting period, as part of
                                        • The expenditure levels for
 our ongoing effort to improve the
                                            maintenance and support of
 Commission’s procurement
                                            the existing Collection System
 process and ensure the timely
                                            did not decrease during the
 delivery of goods and services by
                                            period under review, and, in
 Commission contractors, we also
                                            fact, appear to have increased
 initiated a series of labor charging
                                            since the completion of the
 and timekeeping practices reviews.
                                            original review.
                                        • There appears to be a
                                            satisfactory process for the
 REPORTS ISSUED                             identification and selection of
                                            RAMIS to replace the current
                                            Collection System.
 FCC Collection System
 Nov. 6, 2000                           The Office of the Managing
 Report No. 00-AUD-07-47
                                        Director (OMD) did not agree
                                        with the status of eight of the
 The objectives of this special         original findings.     OMD also
 review were to: examine the status     provided information that
 of the FCC’s resolution of the         indicates that the expenditure
 findings detailed in the original      levels for maintenance and support
 Special Review of the Collection       did not agree with the status of




Semiannual Report to the Congress                                        9
 eight of the original findings.
 OMD also provided information          The objective of this special
 that indicates that the expenditure    review was to determine whether
 levels for maintenance and             Commission web sites are
 support of the existing Collection     accessible to disabled users. We
 System had decreased from fiscal       sought to determine if the
 year 1999 to fiscal year 2000.         Commission would be able to
                                        comply with federal standards
 OIG will continue to monitor the       related to web accessibility when
 status of our original review          they become effective next year.
 findings and will incorporate steps
 in our audit of the fiscal year 2000   As a result of our review and
 financial statements to assess the     testing over three hundred (300)
 effectiveness of the corrective        FCC Internet pages, we found
 actions in addressing deficiencies     accessibility issues in thirty-one
 identified.                            (31) web pages. In our opinion,
                                        the Commission has a proactive
 MITRE Corporation                      and effective web accessibility
                                        program supported by the
 Proposal for the “Support of           Disabilities Rights Office within
 the FCC Common Carrier                 the Consumer Information Bureau
 Bureau.”                               (CIB), the Office of Media
 Dec. 12, 2000                          Relations (OMR), and the
 Report No. 01-AUD-03-07                Information Technology Center
                                        (ITC).
 The objective of this audit was to
 determine if proposed costs in         The Chief, CIB, the Director,
 MITRE’s Cost Plus Fixed Fee            OMR, and the Managing Director
 revised proposal were acceptable       all concurred with our findings.
 as a basis to negotiate a fair and     They stated that “OMR and the
 reasonable contract price.             ITC will ask the developers
                                        responsible for the identified
 After evaluating the proposed          pages to review and fix the
 costs we determined that the           accessibility problems within
 proposal was acceptable as a           ninety days, or submit a work plan
 basis for negotiation of a fair and    and time table by February 1,
 reasonable price.                      2001 for revising the pages.”

 Web Page Accessibility
 Jan. 19, 2001
 Report No. 00-AUD-10-55




Semiannual Report to the Congress                                       10
 Frye, Williams & Co. PC
 Oct. 23, 2000                            GCI Information Services
 Report No. 00-AUD-10-58                  October 23, 2000
                                          Report No. 00-AUD-11-59
 The objective of this review was to
 evaluate the labor charging and          The objective of this review was to
 timekeeping practices of the             evaluate the labor charging
 contractor.       Based on an            practices of the contractor. Based
 unannounced floor check of the           on an unannounced floor check of
 contractors’ employees, an analysis      the contractor’s employees, an
 of selected timesheets, and              analysis of selected timesheets, and
 interviews of selected employees,        interviews of selected employees,
 five timekeeping deficiencies were       three timekeeping deficiencies
 noted as follows:                        were noted as follows:

 •    Timesheets were completed           •   Timesheets were signed in
      and/or signed in advance,               advance,
 •    Timesheets were prepared in         •   Timesheets were not kept
      pencil rather than in ink,              current, and
 •    There were unauthorized             •   Two GCI employees were not
      overtime charges and hours              provided written timekeeping
      worked were improperly                  policies and procedures.
      recorded,
 •    Improper corrections of hours       Because the contractor was
      worked were made, and               replaced at the beginning of FY
 •    Employees did not possess the       2001 the findings were not
                                          forwarded to GSI for comment.
      same written timekeeping
      policies and procedures.

 The contractor concurred in three
 of the five deficiencies noted,
 objecting to the ones dealing with
 consistent timekeeping policies and
 procedures, and unauthorized
 overtime. The OIG will follow up
 on the timekeeping practices issue.
 We will also be initiating an audit
 of the billings under this contract to
 address the noncompliance and
 potential erroneous labor charging
 issue.




Semiannual Report to the Congress                                           11
NOVA Technology                         timekeeping     practices   of   the
February 8, 2001                        contractor.
Report No. 01-AUD-05-15
                                        Based on an unannounced floor
The objective of this review was to     check      of the contractor’s
determine if contractor employees       employees, an analysis of selected
were actually at work, that they        timesheets, and interviews of
were performing in their assigned       selected employees, one instance of
job classifications, and that their     an employee failing to complete his
time was charged to the                 timesheet through the previous day
appropriate jobs.        Based on       was discovered.
unannounced floor checks five
deficiencies in the contactor’s         The contractor concurred in the
timekeeping system were noted as        finding and stated that they intend
follows:                                to instruct their employees and
                                        subcontractors to record time
•   Timesheets were not signed at       charges at the end of each day or
    the end of the work week,           the beginning of the next day
•   There was an error correction
    with no explanation,                Computech, Inc.
•   One employee failed to record       February 27, 2001
    hours worked,                       Report No. 01-AUD-05-14
•   Two employees worked through
    lunch without taking a lunch        The objective of this review was to
    break in violation of the Fair      evaluate the labor charging and
    Labor Standards Act, and            timekeeping practices of the
•   One employee failed to record       contractor.
    their time in military hours in
    violation of company                Based on an unannounced floor
    procedures.                         c h e c k o f t h e c o n t r actor’s
                                        employees, an analysis of selected
The contractor concurred in all         timesheets, and interviews of
findings and stated their belief that   selected employees, three
they can readily comply with all        timekeeping deficiencies were
recommendations.                        noted as follows:
                                        • Hours were not recorded on
Ernst & Young, LLP                           timesheets correctly,
February 8, 2001                        • Timesheets were not completed
Report No. 01-AUD-05-15                      through the previous day, and
                                        • A timesheet correction was not
The objective of this review was to          properly initialed by the
evaluate the labor charging and              employee.




Semiannual Report to the Congress                                          12
The contractor agreed with most of     Frye-Williams & Company
the time reporting findings and        January 26, 2001
emphasized their commitment to         Report No. 01-AUD-01-03
accurate and timely labor
recording practices. However, they     The objective of this review was to
disagreed with the findings            determine the extent of
regarding timesheets that had no       unauthorized overtime being
hours recorded for three specific      charged to the FCC during a one
days. OIG found their argument         month period in the year 2000.
without merit. The report has been
forwarded to the Contracting           Upon examination of the pertinent
Officer for resolution.                timekeeping records, timekeeping
                                       policies and procedures, and other
                                       documentation, we verified that the
Computech, Inc.                        contractor worked 46.5 overtime
December 12, 2000
Report No. 00-AUD-12-63                hours without approval. The value
                                       of the unauthorized overtime was
The objective of this audit was to     $1,201.00. The contractor does not
determine the acceptability of         concur with this finding.      The
Computech’s claim as a basis for       Contracting Officer has not made a
settlement.   It was initiated in      final decision on this matter as of
response to a request from the         this report date.
Contracts and Purchasing Center
to examine the contractor’s claim      Telecordia Technologies, Inc.
for recovery of costs resulting from   February 26, 2001
government caused delays.              Report No. 01-AUD-05-17

                                       The objective of this review was to
Upon examination of the pertinent
                                       evaluate the direct labor rates,
timesheets and other
                                       indirect rates, subcontractor costs
documentation, the OIG opined
                                       and other direct costs contained in
that the contractor’s claim was
                                       the contractor’s competitive
unacceptable for settlement
                                       proposal.
because the contractor failed to
provide adequate documentation to
                                       We have completed our “agreed-
support this claim. The contracting
                                       upon procedures” cost realism
officer has not rendered a final
                                       review of the bidder’s proposal.
decision on this matter as of this
                                       Since source selection has not been
report date.
                                       completed as of this report date, no
                                       further comment will be made
                                       regarding the results of our review.




Semiannual Report to the Congress                                        13
 NeuStar, Inc.
 February 28, 2001
 Report No. 01-AUD-05-18

 The objective of this review was to
 evaluate the direct labor rates, indirect
 rates, subcontractor costs and other
 direct costs contained in the
 contractor’s competitive proposal.

 We completed an “agreed-upon
 procedures” cost realism review of the
 bidders proposal.          Since source
 selection has not been completed as of
 this report date, no further comment will
 be made regarding the results of our
 review.




Semiannual Report to the Congress            14
SURVEYS
As part of our ongoing effort to test
                                        Mass Media Bureau’s
new and high risk areas to              Multipoint Distribution
determine whether or not                System, Instructional TV,
additional audit work needs to be       Fixed Services (MDS/ITFS)
performed, we conducted a number        System
of surveys.                             December 14, 2000


                                        The objectives of this survey were
Wireless Telecommunications
                                        to obtain information about the
Bureau’s Universal Licensing            MDS/ITFS development project;
System (ULS)                            evaluate project documentation to
July 25, 2000                           assess whether the Bureau
                                        developed and implemented the
The objectives of this survey were      system in an economic and efficient
to obtain information about the         manner; and determine the nature
ULS development project; evaluate       and extent of any subsequent
project documentat ion to identify      review work.
weaknesses or inefficiencies; and
determine the nature and extent of      As a result of our survey work, we
any subsequent review work.             found that the MDS/ITFS
                                        represents a measurable
We concluded that OIG should not        improvement over the largely
perform any additional work on the      manual systems it replaced.
ULS system because we felt that an      However, we did identify cost
audit would just reiterate the          increases that resulted from delays
findings of the survey. As a result,    and disruptions in the Bureau’s
we have concluded that we should        development and implementation of
focus on two specific areas in the      MDS/ITFS.
future:      Information Systems
Strategic Planning and Electronic       We determined that additional
Filing.                                 audit work would not be an efficient
                                        use of limited audit resources. We
                                        believe that the Commission’s
                                        recent adoption of a Commission-
                                        wide Systems Development Life
                                        Cycle will address the causal
                                        factors that contributed to the
                                        problems with the MDS/ITFS




Semiannual Report to the Congress                                         15
 development process                identified
 during our survey.
                                                 REPORT
 Accounts                   Payable              AVAILABILITY
 Disbursements
 January 10, 2001                                OIG reports can generally be
                                                 obtained via the internet from the
 The objectives of this survey were              OIG web page located on the FCC
 to develop a computer-assisted                  website www.fcc.gov/oig/.
 audit technique using advanced                  However, OIG reports containing
 audit software; search for                      sensitive or proprietary
 indicators of questionable or                   information will be restricted to
 unusual disbursement attributes                 specific individuals and
 with this advanced audit software;              organizations with a need to know
 and examine any disbursement that               the detailed information.
 displays any indicator of
 questionable or unusual activities.

 As a result of our survey work, we
 were able to explain to our
 satisfaction the anomalies we
 found.

 We conclude that we should not
 perform any additional work on
 the disbursements data for the
 fourth quarter of FY 1999 or the
 first three quarters of FY 2000.
 We do believe that we should
 continue this program by
 instituting a recurring system that
 would obtain disbursements data,
 analyze it using the tested
 techniques, identify exceptions,
 and research, reconcile and verify
 each anomaly. We also believe
 that this periodic review should be
 streamlined and further
 automated.




Semiannual Report to the Congress                                                16
                                           A draft report was submitted to the
 ONGOING ACTIVITY                          Managing Director and the Chief,
                                           Wireless Telecommunications
                                           Bureau for review and comment on
 Special Review of Internet                March 28, 2001.
 Privacy and Web Cookies

 The objectives of this Special            Financial Statement Audit
 Review are to evaluate
 Commission practices related to           The overall audit objective is to
 Internet Privacy and Web Cookies          provide an opinion on the FY2000
 and to provide a report to                financial statements which is part
 Congress on these practices.              of our continuing effort to support
                                           management efforts to bring the
 A draft report was submitted to the       FCC’s financial accounting and
 FCC’s Chief Information Officer           reporting system into compliance
 on March 23, 2001 for review and          with applicable accounting
 comment.                                  principles and standards, federal
                                           laws and regulations, and policy
 Audit of            Web        Presence   guidance.
 Security

 The objective of this audit is to
 measure how successful the
 Commission has been in securing
 its web portals.




Semiannual Report to the Congress                                           17
                                            “concept of operations” paper
 TECHNICAL                                  as well as the draft “Agency
                                            Participation Agreement.”
 ADVICE
 and ASSISTANCE                         •   The OIG was represented on
                                            Commissioner Powell’s
                                            Commission-wide task force on
 During the six-month reporting             the management of non-public
 period covered by this report, OIG         information. The end product
 management and staff have                  of the task force was a
 continued to dedicate resources            proposed directive tightening
 toward assisting the agency in             the management and controls
 areas in which our expertise can           of such information.
 provide benefit. For example, OIG
 personnel have participated in the
 following projects:                    Systems Development Life
                                        Cycle
 Financial Management
                                        Over the past two years, our
 Advisory Services                      auditors have worked closely with
                                        Commission representatives from
 The OIG provided advisory and          the Information Technology Center
 assistance service to the              (ITC) and Commission Bureaus
 Commission as it continues the         and Offices to develop a Systems
 task of realigning its financial       Development Life Cycle (SDLC).
 management functions to                The SDLC is a methodology
 implement CFO Act financial            designed to assist project
 reporting..                            managers direct and supervise the
                                        development lifecycle for computer
 OIG staff continued to provide         applications. It was implemented
 extensive assistance to the CFO        the last quarter of calendar year
 staff as it prepared to expand         2000.
 financial reporting to include all
 principal statements for FY 2000.      Auditors participated with
                                        representatives from the ITC to
 •    As the Commission moves in        prepare the final version of the
      lockstep with the U.S. Treasury   SDLC, compose a user guide, and
      on its pay.gov electronic         develop both a training program
      payment initiative the OIG        and web page for the project.
      staff provided advice in the
      form of comments on the




Semiannual Report to the Congress                                       18
 As part of the SDLC process, the       Procurement          Advisory
 OIG is participating in the            Services
 development of new and updated
 information systems.        These      In the OIG’s efforts to provide
 include the Consumer Information       comprehensive contract       audit
 Management System (CIMS), the          services to the FCC’s Contracts
 Intelligent Gateway proposal, and      and Purchasing Center, the OIG
 an International Bureau Electronic     also advises the Commission’s
 Filing System (IBFS) maintenance       contracting officers (COs) on
 project.                               contract and contractor financial
                                        and performance matters that do
                                        not require contract audits. OIG
 Inventory            Capitalization    contract auditors performed the
 Revision                               following contract advisory
                                        services during this reporting
 At the request of Administrative       period:
 Operations personnel, the OIG
 participated in a series of meetings   Advised the CO on a potential
 regarding the feasibility of           contractor’s claim of “monetary
 changing the FCC’s capitalization      exemption” from Cost Accounting
 threshold for selected items.          System (CAS) requirements.
 Under the change, approximately        Advised that the contractor was
 12,000 traceable items at FCC          CAS exempt because they are
 headquarters would be excluded         participating in a competitive
 from current policy.                   procurement.      However, the
 Management’s ability to adjust         contractor’s cost accounting
 accountability thresholds is a         system still must be adequate to
 necessary and common function of       support claims to the government
 property management. We expect         on government contracts.
 the issue to be resolved during the
 next reporting period.                 This advice resulted in the
                                        contractor changing his
                                        accounting system to comply with
                                        Federal Acquisition Regulation
                                        (FAR) cost accounting
                                        requirements.

                                        OIG auditors continued to provide
                                        technical input and assistance to
                                        the Deputy Associate Managing
                                        Director—Administrative




Semiannual Report to the Congress                                       19
Operations and Office of General
Counsel in addressing a contract dispute
between a contractor and the FCC that
was being litigated before the GSA
Board of Contract Appeals (GSBCA).

 The contractor disputed the FCC’s
determination denying the contractor’s
approximate $288,000 cost claim and
filed an appeal with the GSBCA for
recovery.

During this reporting period, the GSBCA
dismissed the case because the parties
agreed to participate in an alternative
dispute resolution (ADR) proceeding
which resulted in a $130,000 settlement
with the contractor.




Semiannual Report to the Congress          20
 SPECIFIC                               3. An identification of each
                                           significant recommendation
 REPORTING                                 described in previous
 REQUIREMENTS of                           semiannual reports on which
                                           corrective has not been
 the                                       completed.
 INSPECTOR                              No significant recommendations
 GENERAL ACT                            remain outstanding.

                                        4. A summary of matters referred
 The following summarizes the              to prosecutive authorities and
 Office of Inspector General               the prosecutions and
 response to the twelve specific           convictions which have
 reporting requirements set forth in       resulted.
 Section 5(a) of the Inspector
 General Act of 1978, as amended.       One case associated with the
                                        Commission’s Universal Services
 1. A description of significant        program has been referred to the
    problems, abuses, and               Department of Justice.
    deficiencies relating to the
    administration of programs          5. A summary of each report
    and operations of such                 made to the head of the
    establishment disclosed by             establishment under section
    such activities during the             (6)(b)(2) during the reporting
    reporting period.                      period.
 No such problems, abuses or            No report was made to the
 deficiencies were disclosed during     Chairman of the FCC under
 the reporting period.                  section (6)(b)(2) during the
                                        reporting period.
 2. A d e s c r i p t i o n o f t h e
    recommendations for
    corrective action made by the
    Office during the reporting
    period with respect to
    significant problems, abuses,
    or deficiencies identified
    pursuant to paragraph (1).

 No recommendations were made.
 See the response to paragraph (1).



Semiannual Report to the Congress                                      21
 6. A listing, subdivided according    The required statistical table can
    to subject matter, of each audit   be found at Attachment B to this
    report issued by the Office        report.
    during the reporting period,
    and for each audit report,         10. A summary of each audit
    where applicable, the total        report issued before the
    dollar value of questioned         commencement of the reporting
    costs (including a separate        period for which no management
    category for the dollar value of   decision has been made by the end
    unsupported costs) and the         of the reporting period (including
    dollar          value        of    the date and title of each such
    recommendations that funds be      report), an explanation of the
    put to better use.                 reasons such management decision
                                       has not been made, and a statement
 Each audit report issued during       concerning the desired timetable
 the reporting period is listed        for achieving a management
 according to subject matter and       decision on each such report.
 described in part II, above.
                                       No audit reports fall within this
 7. A s u m m a r y o f e a c h        category.
    particularly significant report.
                                       11. A description and explanation
 Each significant audit and            of the reasons for any significant
 investigative report issued during    revised management decision
 the reporting period is summarized    made during the reporting period.
 within the body of this report.
                                       No management decisions fall
 8. Statistical tables showing the     within this category.
    total number of audit reports
    with questioned costs and the      12. Information concerning any
    total dollar value of questioned   significant management decision
    costs.                             with which the Inspector general is
                                       in disagreement.
 The required statistical table can
 be found at Attachment A to this      No management decisions fall
 report.                               within this category.
 9.Statistical tables showing the
 total number of audit reports with
 recommendations that funds be put
 to better use and the total dollar
 value of such recommendations.




Semiannual Report to the Congress                                       22
                                                                     Attachment A

 Table I. OIG Audit Reports With Questioned Costs


 Inspector General Reports                    Number of   Questioned      Unsupported
 With Questioned Costs                        Reports     Costs           Costs

 A. For which no management decision has          1         $265,180           0
     been made by the commencement of
     the reporting period.

 B. Which were issued during the reporting        3        $ 1,064,276      $ 253,453
    period.


                Subtotals (A+B)                   4        $ 1, 329,456     $ 253,453



 C. For which a management decision was           1
    made during the reporting period.


      (i) Dollar value of disallowed costs        0         $135,180           0



     (ii) Dollar value of costs allowed           0         $130,000           0



 D. For which no management decision has          3        $ 1,064,276      $ 253,453
    been made by the end of the reporting
    period.

     Reports for which no management              0             0              0
     decision was made within six months of
     issuance.




Semiannual Report to the Congress                                                       23
                                                                     Attachment B

Table II. OIG Audit Reports With Recommendations
That Funds Be Put To Better Use

 Inspector General Reports With       Number of                         Dollar Value
 Recommendations That Funds Be Put To Reports
 Better Use
 A. For which no management decision has been made by the        0           0
    commence of the reporting period.


 B. Which were issued during the reporting period                0           0



               Subtotals (A+B)                                   0           0



 C. For which a management decision was made during the
    reporting period.

     (i) Dollar value of recommendations that were agreed to     0           0
         by management


        - Based on proposed management action.                   0           0



        - Based on proposed legislative action.                  0           0



     (ii) Dollar value of recommendations that were not agreed   0           0
     to by management.

 D. For which no management decision has been made by the        0           0
    end of the reporting period.


     For which no management decision was made within six        0           0
     months of issuance,




Semiannual Report to the Congress                                                  24
 Report Fraud, Waste or Abuse to:
 Office of the Inspector General
 Federal Communications Commission




                                          CALL

                          Hotline: 202/418-0473
                                              or
                         http://www.fcc.gov/oig/


                   You are always welcome to write or visit.




                                    Federal Communications Commission
                                                       Portals II Building
                                      445 12th St., S.W.—Room #2-C762
                                                Washington, D.C. 20554



Semiannual Report to the Congress                                       25
